TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                 Better Management of Some Procedures for
                     Sales of Seized Property Is Needed



                                           July 30, 2008

                              Reference Number: 2008-30-144




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information

 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                               DEPARTMENT OF THE TREASURY
                                                   WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                               July 30, 2008


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION

 FROM:                          Michael R. Phillips
                                Deputy Inspector General for Audit

 SUBJECT:                       Final Audit Report – Better Management of Some Procedures for Sales
                                of Seized Property Is Needed (Audit #200730014)

 This report presents the results of our review of the Internal Revenue Service’s (IRS) sales of
 seized property. The overall objective of this review was to determine whether the IRS properly
 followed procedures for sales of seized property and whether controls were effective to
 safeguard assets and protect taxpayer rights. This audit was conducted as part of our Fiscal Year
 2008 Annual Audit Plan.

 Impact on the Taxpayer
 When a taxpayer owes delinquent tax and thorough consideration has been given to all case
 factors and alternative collection methods,1 the IRS can seize taxpayer property for payment of
 the tax. Seized property can be sold by public auction or by public sale under sealed bids, with
 the proceeds applied to the delinquent tax. Although employees effectively followed many
 procedures for sales of seized property, Collection function management did not ensure that all
 procedures were followed and that seized properties stored in IRS facilities were adequately
 controlled. If procedures are not followed, theft, vandalism, and violations of taxpayer rights can
 occur, although we did not find any such instances in this review.




 1
     See Appendix V for a Glossary of Terms.
                      Better Management of Some Procedures for Sales of Seized
                                        Property Is Needed




Synopsis
The numbers of seizures and sales made by the IRS have generally increased over the last
7 fiscal years, resulting in more dollars collected and more assets sold. In Fiscal Year 2001,
75 (32 percent) of the 234 seizures went to sale. In comparison, 309 (46 percent) of the
676 Fiscal Year 2007 seizures went to sale. The proceeds from sales rose from $2.6 million in
Fiscal Year 2001 to $20.7 million in Fiscal Year 2007.2
Our review of a judgmental sample of 32 closed (completed) sales of seized property showed
that prior to each seizure, the Property Appraisal Liquidation Specialist (PALS) properly
discussed the moving and storage plans with the revenue officer(s) and estimated expenses of the
sale. Each PALS also took the necessary case actions to prepare for and advertise the sale,
prepare the required memoranda, and obtain supervisor approvals. Our observations at three
public auctions showed that during each sale, the PALS used appropriate assisting employees,3
answered questions and registered potential bidders, announced conditions of the sale as
required, and adjourned the sale as needed. After each sale, the PALS obtained payment from
and issued appropriate documentation to successful bidders in a timely manner, deposited and
submitted proceeds to the appropriate IRS campus in a timely manner, and prepared closing file
documents properly.
However, our review of the 32 closed sales determined that PALS management needs to provide
better oversight to ensure that employees follow procedures related to these issues:
    •   16 cases did not have appropriate explanations documented for the reductions taken when
        the minimum bid prices were established.
    •   5 cases did not include a decision, at least 1 day in advance of the sale, about whether to
        bid-in for the Federal Government4 if the minimum bid was not reached, and 9 other
        cases did not include documentation of the reasons for the decisions.
    •   4 cases did not include a proper history of mail-in bids.
    •   Seizure logs were sometimes incomplete or inaccurate. (A corrective action by
        Collection Policy function management has already been implemented.)
Although case files showed that PALS managers reviewed and signed off on the Minimum Bid
Worksheets (Form 4585) and the Records of Seizure and Sale (Record 21), there was no
evidence that these reviews identified the errors in these issues. Failure to follow procedures can

2
  Because we relied on information accumulated by the IRS in established reports, we did not verify the accuracy of
the data.
3
  Employees other than revenue officers are allowed to assist during the sales.
4
  The Federal Government may purchase property that can be sold if it is in the Government’s best interest. The
Federal Government pays the minimum bid price in these instances.
                                                                                                                  2
                  Better Management of Some Procedures for Sales of Seized
                                    Property Is Needed



result in miscalculation of minimum bid prices that could prevent the PALSs from obtaining the
highest value for the properties and missed opportunities for the IRS to bid-in for the Federal
Government when appropriate. If the seizure logs are not completed, inaccurate information
could be used by Collection function management in managing the PALS program.
In addition, Collection function management did not ensure that employees followed all
procedures for storing seized properties in their IRS facilities. Our verification of property
acquired from eight seizures and stored in IRS facilities showed that seven seizures did not have
required custodial memoranda prepared until we requested them. Also, employees did not use
consistent procedures for logs to track and control access into and out of IRS storage facilities.
Although we accounted for the properties in our sample, two inventory lists from seizures
containing multiple items had inaccurate counts and descriptions of the properties.
Collection function management informed us that some employees were not aware of the
custodial memorandum requirement and that controls into and out of IRS storage facilities were
inconsistent because local management makes the policy. Inventory lists were inaccurate due to
1) improper inventory planning such as estimating the time and number of employees required
for the task, and 2) human error. If seized properties are not safeguarded and inventories are not
accurate, fraud, theft, and possible violations of taxpayer rights could occur, although we did not
find any such instances in this review.

Recommendations
We recommended the Director, Collection, Small Business/Self-Employed Division, improve
management oversight and clarify procedures related to explanations and documentation in case
files, and monitor the recently implemented corrective action for seizure logs to ensure that the
logs are accurate. The Director should also clarify procedures and provide additional guidance
for storing and controlling property in IRS facilities and taking inventory of seized property, and
ensure during the next physical inventory that inventory lists are checked for accuracy.

Response
IRS management fully agreed with two of the three recommendations and is planning corrective
actions. The IRS will use the seizure program review already in progress to determine the extent
of documentation errors and issue guidance to clarify procedures, and will continue to review the
seizure logs for accuracy and issue additional guidance if needed. IRS management also agreed
to clarify the procedures for storing property and controlling access to Collection function
storage facilities. However, IRS management advised that there are already 2 inventory
verifications conducted on seized properties fewer than 90 days old and because there were no
findings of loss, vandalism, or violations of taxpayer rights in this report, they will review the
current inventory verification processes prior to adding a third process. We agree with the IRS

                                                                                                     3
                  Better Management of Some Procedures for Sales of Seized
                                    Property Is Needed



decision to further evaluate the current inventory validation processes prior to implementing
additional procedures for seizures with multiple properties fewer than 90 days old. However, we
remind management that their two current inventory verifications did not detect the errors we
identified in this report. Management’s complete response is included as Appendix VI.
Please contact me at (202) 622-6510 if you have questions or Margaret E. Begg, Acting
Assistant Inspector General for Audit (Small Business and Corporate Programs), at
(202) 622-8510.




                                                                                              4
                         Better Management of Some Procedures for Sales of Seized
                                           Property Is Needed




                                             Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          Procedures and Controls for Conducting Public Sale Auctions
          Are Effective.................................................................................................Page 4
          Management Needs to Improve Oversight of Sales of Seized Property
          to Ensure That All Procedures Are Properly Followed ................................Page 4
                    Recommendations 1 and 2: ................................................Page 9

          Procedures for Taking Inventory of and Storing Seized Property in
          Internal Revenue Service Facilities Were Not Always Followed ...............Page 9
                    Recommendation 3:........................................................Page 10


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 12
          Appendix II – Major Contributors to This Report ........................................Page 14
          Appendix III – Report Distribution List .......................................................Page 15
          Appendix IV – Internal Revenue Service Procedures for Conducting
          Public Auction Sales of Seized Property ......................................................Page 16
          Appendix V – Glossary of Terms .................................................................Page 17
          Appendix VI - Management’s Response to the Draft Report.......................Page 19
       Better Management of Some Procedures for Sales of Seized
                         Property Is Needed




                    Abbreviations

FY            Fiscal Year
IRM           Internal Revenue Manual
IRS           Internal Revenue Service
PALS          Property Appraisal Liquidation Specialist
                      Better Management of Some Procedures for Sales of Seized
                                        Property Is Needed




                                             Background

Internal Revenue Service (IRS) collection of unpaid tax begins with letters to the taxpayer,
generally followed by telephone calls and personal contacts by an IRS employee and possible
enforcement actions.1 The employees who make personal contacts are referred to as revenue
officers. They consider the taxpayer’s ability to pay the tax and discuss alternatives, such as an
installment agreement or offer in compromise. If these actions have been taken and the taxpayer
has not fully paid the tax due, the revenue officer considers all alternatives and can take the
taxpayer’s property for the payment of taxes, commonly referred to as a “seizure.” Seized
property can be sold by public auction or by public sale under sealed bids.
To protect taxpayer rights, the IRS Restructuring and Reform Act of 19982 changed use of a
seizure from a general enforcement tool to one that should be used only when thorough
consideration has been given to all case factors and alternative collection methods. After this
Act, the number of seizures made was drastically reduced. However, as shown in Figure 1, the
numbers of seizures and sales have generally increased over the last 7 fiscal years, resulting in
more dollars collected and more assets sold. In Fiscal Year (FY) 2001, 75 (32 percent) of the
234 seizures went to sale. In FY 2007, 309 (46 percent) of the 676 seizures went to sale. The
proceeds from sales rose from $2.6 million in FY 2001 to $20.7 million in FY 2007.
                 Figure 1: Increasing Seizures, Sales, and Sale Proceeds3
                   FY 2001      FY 2002      FY 2003       FY 2004       FY 2005       FY 2006       FY 2007
     Total
     Seizures           234          296           399           440           512           590           676
      Sales              75           95          181        210               231           312           309
      Sale
      Proceeds $2,611,714 $4,154,388 $11,265,363 $15,461,487           $20,514,841   $18,321,356   $20,682,732
    Source: Collection National Reports 5000-23 and 5000-33.

With an increase in seized property, there is an increased risk of theft, vandalism, and violations
of taxpayer rights. However, on this audit we did not find such instances.




1
  See Appendix V for glossary of terms.
2
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
3
  Because we relied on information accumulated by the IRS in established reports, we did not verify the accuracy of
the data.
                                                                                                            Page 1
                     Better Management of Some Procedures for Sales of Seized
                                       Property Is Needed



To promote fairness and reduce the appearance of impropriety with sales of seized property,
Section 34434 of the IRS Restructuring and Reform Act of 1998 required the IRS to
1) implement a uniform asset disposal mechanism for sales to remove any participation by
revenue officers and 2) consider the use of outsourcing. As a result, the IRS created a new
position, the Property Appraisal Liquidation Specialist
(hereafter referred to as a PALS or Specialist), to take          The IRS Restructuring and
possession of and store property after seizure, verify the      Reform Act of 1998 called for
fair market value, determine the minimum bid price, and          implementation of a uniform
sell it through public auction or public sale under sealed      asset  disposal mechanism for
                                                              sales. The IRS created the PALS
bids. Although most public auctions/sales are conducted          position to conduct sales of
by the Specialists, the IRS is authorized to use alternative            seized property.
sources–such as a professional auctioneer–if doing so is
appropriate for a specific case.
Currently, there are 4 PALS groups, with 28 Specialists, located throughout the country. The
Specialists are organizationally placed in the Small Business/Self-Employed Division under the
Collection function Office of Advisory, Insolvency, and Quality. One goal stated in the Office
of Advisory, Insolvency, and Quality FY 2007 Program Letter was to protect the Federal
Government’s (hereafter referred to as the Government) interest by conducting sales in such a
manner as to promote the maximum benefit for the taxpayer and the Government.
As technical authorities, Specialists work with revenue officers to help determine the value of the
property, estimate sales expenses, and determine the minimum bid price. In addition, they make
plans with the revenue officers for taking possession of and storing the property as soon as
practicable after the seizures. Once a seizure takes place, the PALS is fully responsible for
planning, marketing, and coordinating the sale of the property in accordance with IRS
procedures and guidelines. Normally, one Specialist is responsible for each sale.
Prior to creation of the PALS position, revenue officers conducted the sales of seized properties,
in addition to performing many other collection duties. Because the Specialists are trained as
appraisers and auctioneers, they have the expertise to capitalize on the available equity in seized
properties.
This review was performed at the Small Business/Self-Employed Division National
Headquarters in New Carrollton, Maryland, and in the Collection function in Plantation, Florida;
Kansas City, Missouri; and, Los Angeles, California, during the period June 2007 through
February 2008. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and

4
 Section 3443 required the IRS to implement a uniform asset disposal mechanism by July 22, 2000, for sales of
seized property under Internal Revenue Code Section 6335. This mechanism was designed to remove revenue
officers from participating in the sales of seized assets.
                                                                                                         Page 2
                  Better Management of Some Procedures for Sales of Seized
                                    Property Is Needed



conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective.
This audit did not duplicate audit work that is performed during the annual mandatory Treasury
Inspector General for Tax Administration review of the IRS’ compliance with legal provisions of
the Internal Revenue Code and internal guidelines for seizures, although some audit tests may
appear similar. This audit focused primarily on IRS sales procedures and related internal
controls for safeguarding and selling seized property. Detailed information on our audit
objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




                                                                                         Page 3
                      Better Management of Some Procedures for Sales of Seized
                                        Property Is Needed




                                      Results of Review

Procedures and Controls for Conducting Public Sale Auctions Are
Effective
PALSs are responsible for all aspects of the public sale of most seized properties and must
follow procedures in the Internal Revenue Manual (IRM) to protect the Government’s interest
and the taxpayer’s rights before, during, and after the sale. During FY 2007, most sales of seized
property were conducted by public auction. When conducting a public auction, the Specialists
identify assistance needed at the sale, register and answer bidders’ questions, announce
conditions of the sale, tabulate bids, collect, count, and deposit money, and issue proper
documents to successful bidders and taxpayers. Appendix IV presents these procedures in more
detail.
Our observations of three public sale auctions showed that employees properly followed the
sales procedures for public auctions and deposited all proceeds. For example, the PALSs
conducting the sales used appropriate assisting employees,5 answered questions and registered
potential bidders prior to the sales, used appropriate language to announce the conditions of sale
and winning bidders, followed appropriate procedures for one or more methods of sale,6 and
adjourned the sales when needed. In addition, the Specialists obtained payment from and issued
appropriate documentation to successful bidders in a timely manner, deposited and submitted
proceeds to the correct IRS campus in a timely manner, and used necessary precautions to
safeguard sale proceeds.

Management Needs to Improve Oversight of Sales of Seized Property
to Ensure That All Procedures Are Properly Followed
Our review of a judgmental sample of 32 closed (completed) sales showed that although
employees properly followed many of the sales procedures, Collection function management did
not ensure that employees followed procedures related to:




5
  Employees other than revenue officers are allowed to assist with sales.
6
  The PALS can choose to offer seized property for sale by only one method (i.e., in the aggregate or by individual
items/lots) or by both methods.
                                                                                                             Page 4
                     Better Management of Some Procedures for Sales of Seized
                                       Property Is Needed



    •   Supporting minimum bid reduction calculations.
    •   Deciding on whether to bid-in for the Government.7
    •   Maintaining proper histories of mail-in bids.
    •   Completing seizure logs accurately and in a timely manner.
Although case files showed PALS managers reviewed and signed off on all Minimum Bid
Worksheets (Form 4585) and Records of Seizure and Sale (Record 21), there was no evidence
that these reviews identified the errors we noted.
PALSs are involved as technical authorities to assist revenue officers with appraising properties,
estimating sale expenses, suggesting towing and/or storage facilities, and planning for custody
transfers. After a seizure, they are required to verify the seized inventory and take custody of the
property as soon as possible, re-verify liens and property values, set the minimum bid price, plan
and advertise the sale, and deliver required sale documentation to the taxpayer. The Specialists
are also responsible for all aspects of the sale of seized property through auctions or sealed bids.
After a sale, they must ensure that proceeds are collected and deposited in a timely manner, sale
expenses are paid, net proceeds are properly applied to taxpayer liabilities, and closing
documents are accurately prepared and submitted in a timely manner.
To ensure that Specialists are meeting these expectations, group managers conduct case reviews
of both in-progress and closed cases to evaluate individual performance. The managers
determine how well each case is progressing and whether the various requirements to advertise
and prepare required paperwork are being met. They also review the level of communication the
PALSs have with revenue officers; the Office of Advisory, Insolvency, and Quality; and the IRS
Office of Chief Counsel.

The Specialists followed many sale procedures
Our review of 32 closed sales of seized property showed that employees properly followed many
of the sales procedures. For example, prior to the seizures, the PALSs discussed the moving and
storage plans with the revenue officers and estimated the expenses of the sales as required.
Specialists prepared detailed written sales plans for the cases. Sales plans included: the
expected date, time and place of the sale; the marketing/advertising plan; the number of assisting
employees needed; the methods of sale to be used; and plans for receiving and disbursing
cash/checks after announcement of the winning bid.
Prior to the sales, the PALSs properly took the necessary case actions to prepare for and
advertise the sales, delivered required sales documentation to the taxpayers, and obtained the
required memoranda and supervisor approvals. After the sales, the Specialists issued required

7
 The Government may purchase property that can be sold if it is in the Government’s best interest. The
Government pays the minimum bid price in these instances.
                                                                                                         Page 5
                   Better Management of Some Procedures for Sales of Seized
                                     Property Is Needed



documentation to the winning bidders, obtained and deposited sale proceeds in a timely manner,
and accurately prepared closing file documents.
In addition, the success and effectiveness of the PALS program are measured by a number of
different indicators. One indicator compares the difference between the minimum bid price and
the winning bid. In 91 percent of our sample cases, the property was sold for more than the
minimum bid price. In 69 percent, the property was sold for more than the forced sale value.

Reductions used to calculate minimum bid prices were not adequately explained
Prior to seizure, revenue officers must determine the property’s equity to ensure that there will be
net proceeds available after the sale to apply to the tax liability. This is accomplished by
determining the property’s fair market value and completing a draft minimum bid worksheet.
The minimum bid prices for seized properties help to ensure that the Government does not sell
assets at prices that are substantially less than their value.
The PALS is also involved at this point in helping the revenue officer estimate the expenses of
the sale. When custody transfers to the PALS, the Specialist uses the fair market value from the
draft minimum bid as a starting point to establish the property’s final minimum bid price that
will be used during the sale. Any changes to the fair market value must be explained by the
PALS.
The minimum bid price is calculated by reducing the fair market value of the property to an
amount that reflects the difficulties associated with a forced Government sale. Two reductions
can be made. The first establishes the “forced sale value” and cannot exceed 25 percent of the
fair market value. Some examples of reasons for taking this reduction include:
   •   The sale is not between a willing buyer and seller.
   •   No guarantee of clear title is given.
   •   No warranty is provided.
A second reduction, which cannot exceed 20 percent of the forced sale value, can then be taken
to arrive at the “reduced forced sale value” when other factors that might adversely affect the
property value are present, such as:
   •   The possibility that senior lien holders might foreclose.
   •   Buyers might have to renegotiate prior encumbrances.
   •   Conventional financing might not be available.
The reductions used should be based on the facts of each case and should not always be the
maximum allowable percentages. PALSs are also required to document the basis for each
reduction.

                                                                                             Page 6
                        Better Management of Some Procedures for Sales of Seized
                                          Property Is Needed



management identified the errors. Failing to make the bid-in decision could result in not
obtaining the property for future sale to help resolve the taxpayer’s delinquent tax liability. Also,
PALS management cannot determine if the decision was appropriate when the factors used as the
basis for the decision are not listed.

Documentation for mail-in bids was missing
Mail-in bids may be accepted for public auction sales and have certain documentation
requirements. The IRM states that when a mail-in bid is received, the PALS is required to
document the bidder’s name, address, and date of bid on a mail-in bidder list. After the sale, for
each unsuccessful mail-in bid, the Specialist should complete the appropriate section of the
mail-in bid form and return it to the bidder by mail, along with any deposit checks received.
Management informed us that copies of the mail-in bidder list and/or returned mail-in bid forms
should be kept in the closed case file.
Fifteen of the 32 sales reviewed had mail-in bids. In 4 (27 percent) of the 15 cases, the PALS
did not list the mail-in bids received on a bidder list, there were no copies of mail-in bids in the
file, or copies were not properly completed to show they were returned to unsuccessful bidders.
Without this documentation, PALS management cannot determine if all unsuccessful mail-in
bidders had their bids and deposit checks returned as required.

Seizure logs were not maintained accurately
The Collection Advisory function maintains seizure logs in each Area Office to assign and
record seizure numbers and to update the disposition of seizures. To ensure that property is
accounted for, these logs should accurately reflect seizure activity and property dispositions.
However, our review showed the Area Offices did not maintain consistent seizure logs, and some
information in the logs was incomplete or inaccurate. The logs did not always include the dates
of final disposition and included inaccurate information about how the properties were disposed
of. For example, our population of 245 seizures from which we selected our sample was affected
when we identified 28 seizures that were not in the population due to inaccurate or missing
disposition information. Also, our sample was affected because we identified two cases that had
inaccurate dispositions recorded in the log. However, because we relied on judgmental sampling
methods8 and did not project the results to the entire population, these issues did not adversely
affect our review results.
Once identified during our review, IRS Collection Policy function management took action to
address the problems by issuing a memorandum to Area Office managers giving detailed
instructions on how to complete a new, standardized seizure log. The memorandum included



8
    A sampling method in which every item does not have an equal chance of being selected.
                                                                                              Page 8
                  Better Management of Some Procedures for Sales of Seized
                                    Property Is Needed



definitions for each field. Seizure logs should be maintained and updated as soon as the
information for a seizure is available.
The logs we reviewed were inaccurate because employees had different interpretations of how to
complete some of the information, and they did not make timely updates to the information on
how property was disposed of. If the seizure logs are not completed, inaccurate information
could be used by Collection function management in managing the PALS program.

Recommendations
The Director, Collection, Small Business/Self-Employed Division, should:
Recommendation 1: Improve management oversight by clarifying procedures related to
documentation of minimum bid prices, mail-in bids, and Government bid-in decisions. A
planned seizure program review could be used to follow up on these issues.
       Management’s Response: IRS management agreed with this recommendation and
       advised that they have already initiated a seizure program review. Once the reviews are
       completed, they will determine the extent of the documentation errors and issue guidance,
       as appropriate, to clarify the procedures.
Recommendation 2: Monitor the recently implemented corrective action for seizure logs to
ensure that the criteria are interpreted consistently and the logs remain accurate.
       Management’s Response: IRS management agreed with this recommendation and
       advised that the seizure logs are being used to select cases for the seizure program
       review. The seizure logs will be reviewed for accuracy and additional guidance will be
       issued if needed.

Procedures for Taking Inventory of and Storing Seized Property in
Internal Revenue Service Facilities Were Not Always Followed
The IRM requires that Government storage facilities (safes or rooms) be used to store moveable
seized property whenever possible. Prior to storing seized property in an IRS storage facility,
revenue officers or PALSs are required to prepare and submit a custodial memorandum to their
group managers identifying the property, its value, and the approximate time it will need to be
stored. When placing the property in the storage facility, the custodial employee and another
IRS employee are required to sign the memorandum stating the name, number, and location of
the property. Local IRS management at each storage facility is responsible for creation of
procedures for controlling access to the facility. Collection function management is responsible
for controlling access to storage facilities within its own function. The IRM requires a physical
inventory verification every 6 months for property over 90 days old.


                                                                                           Page 9
                         Better Management of Some Procedures for Sales of Seized
                                           Property Is Needed



Revenue officers must take detailed inventories of seized properties, which they normally do
during the seizures. Prior to taking custody of any property, the Specialist must verify the
detailed inventory and notify the revenue officer of any discrepancies so that corrected
documents can be sent to the taxpayer. The IRM also requires that employees plan for taking
inventories to ensure that the appropriate time is allotted, the right number of assisting
employees is obtained, and the seized property is identified and described with reasonable
certainty.
Our verification of property acquired through eight seizures and stored in three IRS storage
facilities showed that the PALSs did not always follow procedures. Custodial memoranda for
seven of the eight seizures were not prepared by the Specialists until we requested them. In
addition, for the two Collection function storage areas,9 managers at each location established
procedures which were inconsistent. One kept a log to track and control access into and out of
the facilities, but the other did not. We accounted for the properties in our sample; however, two
inventory lists had inaccuracies in the counts and descriptions of the properties. These two
seizures contained multiple properties.
Collection function management did not provide adequate instructions or oversight to ensure that
employees effectively followed procedures regarding custodial memoranda and taking inventory
and did not ensure within the Collection function that there were consistent procedures for
controlling access to storage facilities. We were informed that some employees might not have
known about the custodial memoranda for IRS storage facilities. Also, inventory counts and
descriptions were inaccurate when inventory duties were rushed due to 1) improper planning,
such as estimating how much assistance and time would be required for counting and identifying
large lots, and 2) human error.
Security risks can result when procedures are not followed or controls are not consistent. Failure
to secure, control access to, and take inventory of property could cause problems with locating
seized property when needed and leave the IRS vulnerable to fraud, theft, vandalism, and/or
violations of taxpayer rights, although we did not find any such instances in this review.




9
    The third IRS storage facility was not within the Collection function.
                                                                                          Page 10
                  Better Management of Some Procedures for Sales of Seized
                                    Property Is Needed



Recommendation
Recommendation 3: The Director, Collection, Small Business/Self-Employed Division,
should clarify procedures for storing property and controlling access to Collection function
storage facilities and should provide additional guidance for taking inventory. Also, during the
next physical inventory, Collection function management should include seizures containing
multiple properties to ensure those inventory lists are checked for accuracy (not just those
properties more than 90 days old).
       Management’s Response: IRS management agreed to clarify the procedures for
       storing property and controlling access to Collection function storage facilities.
       However, management advised that there are already 2 inventory verifications conducted
       on seized properties fewer than 90 days old and because there were no findings of loss,
       vandalism, or violations of taxpayer rights in this report, they will review the current
       inventory verification processes prior to adding a third process.
       Office of Audit Comment: We agree with the IRS decision to further evaluate the
       current inventory validation processes prior to implementing additional procedures for
       seizures with multiple properties fewer than 90 days old. However, we remind
       management that the two current inventory verifications did not detect the errors we
       identified in the report.




                                                                                          Page 11
                         Better Management of Some Procedures for Sales of Seized
                                           Property Is Needed



                                                                                      Appendix I

            Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS properly followed
procedures for sales of seized property and whether controls were effective to safeguard assets
and protect taxpayer rights. This audit did not duplicate audit work that is performed on the
annual mandatory Treasury Inspector General for Tax Administration review of the IRS’
compliance with legal provisions of the Internal Revenue Code and internal guidelines for
seizures. This audit focused primarily on IRS sales procedures and related internal controls for
safeguarding and selling seized property. To accomplish our objective, we:
I.         Determined whether IRS procedures and controls for sales of seized property were
           followed.
           A. Identified IRS procedures, guidance, and controls for sales of seized property through
              research of IRMs and discussions with Collection function and PALS management.
           B. Used the IRS web site1 lists of future seized property auctions to judgmentally select a
              sample of three IRS sales of seized taxpayer property to observe and verify whether
              required sale procedures were followed. We used judgmental sampling because the
              population of property auctions changes from day to day and we selected auctions on
              different dates during our audit fieldwork period (June 2007 through February 2008).
              We did not have a specific population to work with.
           C. Obtained seizure logs with sale dispositions for the period of October 1, 2006,
              through June 30, 2007, and identified a population of 245 seizures. Note: We also
              obtained seizure logs with all types of dispositions for the same period and later
              determined there were 28 seizures with inaccurate or missing dispositions that had
              been sold and were not included in our sample population of 245 seizures.
           D. Selected a judgmental sample of 32 seizures/sales involving 29 taxpayers. We used
              judgmental sampling because we could not be sure of the accuracy of our population
              due to missing or inaccurate information on the seizure logs.
           E. Reviewed the 32 cases selected in Step I.D. to determine whether the PALSs
              followed sales procedures involving:
                1. Preseizure requirements.
                2. Minimum bid calculations.


1
    A public web site used by the IRS to list seized property sales.
                                                                                              Page 12
                 Better Management of Some Procedures for Sales of Seized
                                   Property Is Needed



         3.   Federal Government bid-in decisions.
         4.   Mail-in bids.
         5.   Custody transfers.
         6.   Auctions.
         7.   Deposits.
      F. Identified those cases that were not worked properly and discussed the issues with
         Small Business/Self-Employed Division management for consensus and to determine
         reasons for any problems.
II.   Determined whether internal controls for safeguarding assets were effective to secure the
      assets and to protect taxpayer rights.
      A. Identified the internal controls for safeguarding seized property from the IRM and
         discussions with Collection function and PALS management.
      B. Used the IRS web site listing of future seized property auctions to judgmentally select
         properties acquired through eight seizures that were stored in three IRS facilities
         during the months of July and November 2007. We used judgmental sampling
         because the population of IRS property auctions changes from day to day and we
         selected properties on different dates during our audit fieldwork period (June 2007
         through February 2008). We conducted a physical inventory of the seized properties
         and evaluated whether the property was safeguarded.




                                                                                        Page 13
                 Better Management of Some Procedures for Sales of Seized
                                   Property Is Needed



                                                                              Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Acting Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Carl Aley, Director
Lynn Wofchuck, Audit Manager
Phyllis Heald London, Lead Auditor
Darryl J. Roth, Senior Auditor




                                                                                      Page 14
                 Better Management of Some Procedures for Sales of Seized
                                   Property Is Needed



                                                                             Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Collection, Small Business/Self-Employed Division SE:S:C
Director, Advisory, Insolvency and Quality, Small Business/Self-Employed Division
SE:S:C:AIQ
Director, Collection Policy, Small Business/Self-Employed Division SE:S:C:CP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                    Page 15
                      Better Management of Some Procedures for Sales of Seized
                                        Property Is Needed



                                                                                                 Appendix IV

    Internal Revenue Service Procedures for Conducting
          Public Auction Sales of Seized Property

When conducting a public auction sale of seized property, the PALS is required to follow these
IRS guidelines:
     •   Use one or more IRS employees to assist with normal sale activities. The employee(s)
         may not be a revenue officer(s).
     •   Answer questions and register potential bidders prior to the sale.
     •   Advise bidders of the taxpayer’s 180-day redemption period for real property.
     •   Allow the taxpayer to explain the condition of his or her titles or liens on property.
     •   Use proper legal language when calling prospective bidders to order, announcing the
         conditions of sale, and naming successful bidders.
     •   Follow appropriate procedures when using one or more methods of sale.1
     •   Obtain timely payment from and issue appropriate documentation to successful bidders.
     •   Deposit and/or submit proceeds to the appropriate IRS campus in a timely manner.
     •   Use necessary precautions to safeguard sale proceeds.
     •   Adjourn the sale as needed, and announce the new sale date and time.




1
  The PALS can choose to offer seized property for sale by only one method (i.e., in the aggregate or by individual
items/lots) or by both methods.
                                                                                                           Page 16
               Better Management of Some Procedures for Sales of Seized
                                 Property Is Needed



                                                                        Appendix V

                           Glossary of Terms

Term                             Definition
Alternative Collection Methods   The IRS is required to consider alternative
                                 methods of collection prior to seizure. Some
                                 examples of alternative tax collection methods
                                 include installment agreements, offers in
                                 compromise, and posting of bond by the taxpayer.
Area Office                      A geographic organizational level used by IRS
                                 business units and offices to help their specific
                                 types of taxpayers understand and comply with tax
                                 laws and issues.
Campus                           The data processing arm of the IRS. The campuses
                                 process paper and electronic submissions, correct
                                 errors, and forward data to the Computing Centers
                                 for analysis and posting to taxpayer accounts.
Enforcement Actions              Possible enforcement actions include putting a levy
                                 on the taxpayer’s assets (e.g., bank accounts),
                                 filing a Federal Tax Lien(s), and serving a
                                 summons for financial records or testimony.
Fair Market Value                The fair market value reflects the condition of the
                                 property at a point in time and can be influenced
                                 by such factors as market conditions, age of the
                                 asset, zoning requirements, technology, demand,
                                 and fitness for use.
Installment Agreement            Arrangements whereby the IRS allows taxpayers to
                                 pay liabilities over time.
Internal Revenue Manual          A manual containing the procedures and controls
                                 for IRS employees to follow.

Levy                             A method used by the IRS to collect outstanding
                                 taxes from sources such as bank accounts and
                                 wages.

                                                                                Page 17
              Better Management of Some Procedures for Sales of Seized
                                Property Is Needed




Term                            Definition
Minimum Bid                     A minimum bid price is calculated on seized
                                property assets prior to sale to ensure that the
                                equity is maximized for the benefit of the taxpayer
                                and the Federal Government.
Offer In Compromise             An agreement between a taxpayer and the IRS that
                                resolves the taxpayer’s tax debt. The IRS has the
                                authority to settle or “compromise” Federal tax
                                liabilities by accepting less than full payment
                                under certain circumstances.
Revenue Officer                 Employees who make personal contacts with
                                taxpayers to collect unpaid taxes.
Senior Lien Holder              Those who have liens filed against a taxpayer’s
                                property prior to the date of a Federal Tax Lien.




                                                                               Page 18
     Better Management of Some Procedures for Sales of Seized
                       Property Is Needed



                                                   Appendix VI

Management’s Response to the Draft Report




                                                          Page 19
Better Management of Some Procedures for Sales of Seized
                  Property Is Needed




                                                     Page 20
Better Management of Some Procedures for Sales of Seized
                  Property Is Needed




                                                     Page 21
Better Management of Some Procedures for Sales of Seized
                  Property Is Needed




                                                     Page 22
